88a
APPENDIX H
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2162-D
United States of America
v.
Oliver Lee White
MOTION TO DISMISS CERTIFICATE OR,
IN THE ALTERNATIVE, TO HOLD A
COMPETENCY HEARING
FILED UNDER SEAL
Filed: 12/20/2017
[REDACTED]

s

89a
[REDACTED]

90a
[REDACTED]

91a
[REDACTED]

92a
[REDACTED]

93a
[REDACTED]

94a
[REDACTED]

95a
[REDACTED]

96a
[REDACTED]

97a
[REDACTED]

98 a
[REDACTED]

99a
[REDACTED]

100a
[REDACTED]

r

101a
[REDACTED]

102a
[REDACTED]

103 a
[REDACTED]

104a
[REDACTED]

105a
APPENDIX I
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
United States of America,
Petitioner,
vs.
Oliver Lee White,
Respondent.
5:17-HC-2162-D
NOVEMBER 29, 2018
MOTION TO HOLD THE CASE IN ABEYANCE
AND COMPTENCY HEARING
BEFORE

THE HONORABLE JAMES C. DEVER,
III
UNITED STATES DISTRICT JUDGE

106a
APPEARANCES:
On behalf of the Government:
ROBERT DODSON, ASSISTANT U.S. ATTORNEY
MICHAEL BREDENBERG, SPECIAL ASSISTANT
U.S. ATTORNEY
CHRISTINA KELLEY, SPECIAL ASSISTANT U.S.
ATTORNEY
U.S. Attorney’s Office
310 New Bern Avenue, Suite 800
Raleigh, North Carolina 27601
On behalf of the Defendant:
HALERIE MAHAN, ESQ.
SUZANNE LITTLE, ESQ.
JACLYN L. DiLAURO, ESQ.
Federal Public Defender
150 Fayetteville St. Mall
Suite 450
Raleigh, North Carolina 27601-2919

PROCEEDINGS
* * *

[Testimony of Dr. Hans Stelmach, pp. 27:23-28:13]
* * *

BY MS. LITTLE:
Q. So I’m going to — I’m going to ask you again.
Based on your evaluations, your meetings — the two
meetings you had with Mr. White, your discussions
with his family, your review of all of the prior

107a
medical reports, do you believe that he is competent
to proceed in this 4248 proceeding?
A.

I do not believe he’s competent.

Q.

All right.
MS. LITTLE: Thank you, Your Honor.
THE COURT: Thank you. Anything else?
MS. LITTLE: No further questions.
MR. DODSON: No, Your Honor. Thank you.

THE COURT: Thank you. Thank you, Doctor.
Please watch your step stepping down.
(The witness left the stand.)
* * *

[Testimony of Raymond Tarlton, pp. 31:22-32:14]
* * *

Q. Based on your interactions with Mr. White, do
you have an opinion as to whether he understands
what’s going on in this 4248 proceeding?
A.

Yes, I have an opinion, Your Honor.

Q.

What is it?

A. That he does not have a rational
understanding of what’s going on in these
proceedings.
Q. How about his ability to assist a lawyer in
defending against particularly prong one?

108a
A. My opinion is that he would not be able to
effectively assist counsel in defending against prong
one, especially in allegations about historical
conduct.
Q. How about you as the guardian ad litem; could
you shed any light on historical facts or data that
may -- things that may have occurred in places — in
states in the western part of the United States?
A. That would be impossible for me, Your Honor.
I have no personal knowledge of those events.
* * *

[Closing Argument of Robert Dodson, pp. 37:2344:21]
* * *

[THE COURT:] But my question for you would
be — one of the cases I cited is Jackson v. Indiana, a
case from the Supreme Court in 1972. And the
description of the Petitioner in that case is, quote:
“Petitioner, Theon Jackson, is a mentally
defective deaf mute with a mental level of a
preschool child. He cannot read, write, or
otherwise communicate except through limited
sign language. In May 1968, at age 27, he was
charged in the Criminal Court of Marion
County, Indiana, with separate robberies of
two women. The offenses were alleged to have
occurred the preceding July. The first involved
property (a purse and its contents) and the
value of four dollars. The second concerned
five dollars in money. The record sheds no
light on these charges since, upon receipt of

109a
not-guilty pleas from Jackson, the trial court
set in motion the Indiana procedures for
determining his competency to stand trial.”
And ultimately he never — he never did
stand trial, but he was committed under Indiana
law.
So just so I’m clear, if we changed the facts
of this case and you had an individual who was
like Petitioner Theon Jackson, a mentally
defective deaf mute with a mental level of a
preschool child who could not read, write, or
otherwise communicate except through limited
sign language, who had been charged but never
convicted of two acts of attempted sexual violence,
and it would be the Government of the United
States’ position that that person could be
committed under the Adam Walsh Act?
MR. DODSON: Well, I would just point out,
Your Honor -THE COURT: No, no. Just yes or no, and then
you can explain. It would be the Government’s
petition -- position let’s sort of get to where the
rubber meets the road —
MR. DODSON: Sure.
THE COURT: - on the legal argument. And
the facts in Jackson are where the rubber meets the
road.
MR. DODSON: Sure.
THE COURT: So there is no limiting principle,
that competency is completely irrelevant, always, for

110a
every individual, no matter how mentally impaired
they are due to an intellectual disability?
MR. DODSON: For those individuals facing
commitment under 18 U.S.C. 4246 THE COURT: No, no.
MR. DODSON: - or 4248?
THE COURT: No, no. Answer my question
about 4248. It would be — it is completely — I mean,
again, that -- the answer to my question has to be,
“Yes, Judge. No matter how intellectually impaired,
no matter if the person has the intellectual ability of
a one-year-old child.”
MR. DODSON: Yes.
THE COURT: It would ~ and now here is my
follow-up question. How would that individual ever
complete successfully the commitment and
treatment program that exists at Butner that I
described in my order? How would that person or a
person with a kindergarten-level — and I’m familiar
with kindergartners and first-graders and secondgraders; interacted with a lot of them in my life. How
on Earth could that person ever complete the
program that is designed to help those who are
committed?
MR. DODSON: Yes, Your Honor. A couple of
things, with the Court’s indulgence.
The answer to your question is yes. We believe
it’s written into the statute that way. It’s the very
reason why the statute was in place to begin with,
the insanity — both the Insanity Defense Reform Act,

111a
which contains 4246, and the Adam Walsh Act, for
this very purpose: So that people who repeatedly
molest children and cannot be dealt with in a
criminal system, that there is a safety net for public
safety reasons. And this is the very definition of that.
Someone who repeatedly has contact with criminal
courts, deemed not competent to stand trial —
THE COURT: So the Government’s position is,
I have to presuppose that you’ve proven prong one.
MR. DODSON: No,
Government’s position at all.

that’s

not

the

THE COURT: Well, but that’s the premise of
your argument, isn’t it? Tell me how that’s not the
premise of your argument. The premise of your
argument is he has committed acts of child
molestation.
MR. DODSON: Right.
THE COURT: The premise of the argument —
therefore, commit him, Judge, for his life, for safety.
And yet this proceeding — the first question
that I have to answer and that you have to prove by
clear and convincing evidence is that he, in fact, did
that. So your argument presupposes that conclusion,
doesn’t it?
MR.
argument.

DODSON:

Yes.

That is

THE COURT: Okay.
MR. DODSON: We absolutely have.

the very

112a
THE COURT: I just want to make sure I
understand —
MR. DODSON: Yeah.
THE COURT: — the argument. The argument
is presuppose that the Government has proven prong
one.
MR. DODSON: No, not - not that we have
proven it, but that we can prove it.
THE COURT: But that’s what you’re saying.
You’re saying that’s why we have this law. And I’m
saying, hmm. I don’t read the law quite that way.
MR. DODSON: Well, but that THE COURT: I’m trying to understand the
argument.
MR. DODSON: Sure. And I’m trying to give it
to the Court in the fact that we’re not asking you to
find that prong one has already been met. We’re
asking you to allow us to get to a place where we can
put on evidence that prong one’s met. But we’re
being stopped at the point where the Court could
potentially say, Well, he’s not competent to even
allow the Government to get to a point to where we
can prove that prong one has been met. And we
believe we can prove it with many -with more than
clear and convincing evidence, Your Honor.
THE COURT: But do you agree that, as part
of the structure of the Act, that he has a right by
statute and certainly in the cases that I’ve cited —
the Constitution of the United States - to defend
himself?

113a
MR. DODSON: Absolutely.
THE COURT: Right?
MR. DODSON: Yes.
THE COURT: And you agree that he doesn’t
have the capacity as an individual to defend himself,
right?
MR. DODSON: Right.
THE COURT: And that the guardian ad litem
can’t help him to defend himself, right, for the
reasons Mr. Tarlton said? Mr. Tarlton wasn’t in
Montana or Arizona or New Mexico or wherever the
alleged event — right? He has no — he has no ability
to sort of say, “I was with him. I can give you
historical information.”
MR. DODSON: Well, the Government’s not
going to concede that point, but I will say that it —
THE COURT: Well, tell me, if you don’t
concede it, tell me how Mr. — Mr. Tarlton testified to
the contrary.
MR. DODSON: Sure.
THE COURT: You had an opportunity to
cross-examine him.
MR. DODSON: Sure.
THE COURT: So tell me how - tell me how on
Earth, under what theory could Mr. Tarlton assist
counsel in defending Mr. White against the factual
evidence that allegedly underlies prong one?

114a
MR. DODSON: Well, we don’t believe that
that’s the determining factor. I mean, the bottom line
and the bigger picture — and I don’t mean to be
evasive or obtuse — but the bigger picture to get to
the Court’s point is the Government believes it can
commit under 4248 an incompetent person whether
or not they have a guardian ad litem, whether they
had a guardian ad litem. This is the very point.
Congress put in that individuals who are not
competent to stand criminal trial are subject to 4246
and 4248.
And I know that there has been much
argument over that phrase, but it’s the Government’s
position that this is why the Act was imposed so that
individuals who are dangerous — and 4246 includes
that they are
sexual dangerous as does 4248
subject to that.
So if it were the case that no incompetent
person could ever be subject to 4248, why would it
then be that when someone is found not competent
under 4241(d), why then would they be subject to
4248(d)?
THE COURT: But you would agree that the
order I wrote actually draws a distinction.
MR. DODSON: Yes. We recognize it.
THE COURT: Right?
MR. DODSON: Yes.
THE COURT: And that in the 184 cases that
we have had in this district that you’re familiar with,
that I’m familiar with, that counsel is familiar with

115a
for Mr. White, that we’ve never had this issue. And
that in nearly every case, prong one is not disputed.
And even if someone said, “Well, I’m going to
dispute it,” a certified copy of a judgment of
conviction of child molestation is - you know, an
analog would be the forgone conclusion doctrine. I
mean, it’s proven.
And then we get to the two medical questions.
But that’s not this case. Right?
MR. DODSON: Yes.
* * *

116a
APPENDIX J
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
United States of America
vs.

Oliver Lee White
5:17-hc-02162-D
TRANSCRIPT OF RULING ON
SECTION 4248 HEARING

December 6, 2018
In Raleigh, North Carolina
Before James C. Dever, III, District Judge
APPEARANCES OF COUNSEL:
For the Government:
ROBERT DODSON, ESQ.
U.S. Attorney’s Office
310 New Bern Avenue
Suite 800
Raleigh, North Carolina 27601

117a
For the Defendant:
SUZANNE LITTLE, ESQ.
HALERIE F. MAHAN, ESQ.
JACLYN LEE DiLAURO, ESQ.
Federal Public Defender’s Office
150 Fayetteville Street, Suite 450
Raleigh, North Carolina 27601

PROCEEDINGS
THE COURT: Good afternoon. Welcome to the
United States District Court for the Eastern District
of North Carolina.
I’m going to announce my findings and conclusions
in connection with the competency hearing that was
held.
The United States seeks to have the Court commit
Oliver Lee White as a sexually dangerous person
under 18 U.S.C. Sections 4247 and 4248. White has
never been convicted of any crime and contests all
three elements under the Adam Walsh Act. See this
Court’s order at Docket Entry 103.
On November 29th, 2018, the Court held a
competency hearing concerning White. The Court
has considered the entire record, the arguments of
counsel, and all evidence. The Court now makes
these findings of fact and conclusions of law.
The Court finds that Oliver Lee White is not
competent to proceed in this proceeding under 18
U.S.C. Sections 4247 and 4248, cannot be restored to
competency by a medication or therapy, and contests

118a
all three elements under 18 U.S.C. Sections 4247
and 4248.
Given these unique facts and the governing law,
the Court grants respondent Oliver Lee White’s
motion to dismiss this proceeding and dismisses the
action without prejudice. White remains subject to
the ongoing proceeding under
18 U.S.C.
Section 4246.
As for the factual background in this case, on
May 26th, 2009, a federal grand jury sitting in the
District of Montana indicted White and charged him
with four counts of aggravated sexual abuse of a
minor.
On December 22nd, 2009, the United States moved
to dismiss the indictment without prejudice after
entering into a pretrial deferment agreement with
White in which the United States deferred
prosecution for two years.
Pursuant to the deferred prosecution agreement,
White was to reside with his mother, Peggy White,
On
and have no contact with minors.
December 22nd, 2009, the District of Montana
dismissed the indictment without prejudice. The
Court released White to his family.
On April 18th, 2012, another federal grand jury in
the District of Montana charged White with four
counts of abusive sexual contact with minors and two
counts of attempted abusive sexual contact with
minors. White’s mother, Peggy White, and her
partner, Susan Kelly, were named as codefendants
and charged with misprison of felony. White’s

119a
criminal defense attorney requested a competency
examination for White.
On May 30th, 2013, Doctors had FMC Butner
concluded that White lacked a rational and factual
understanding of the criminal charges and
proceedings against him and could not assist in his
defense. The Honorable Donald Molloy, United
States District Judge in the District of Montana,
requested an evaluation of White under 18 U.S.C.
Section 4246. On September 11th, 2013, Doctors at
FMC Butner concluded that "White’s mental
condition would not create a substantial risk of
bodily injury to another person or serious damage to
the property of another, thus, White should not be
committed under 18 U.S.C. Section 4246.
On October 7th, 2013, Judge Molloy ordered that
the six criminal charges against White be dismissed
without prejudice unless the United States objected.
On October 10th, 2013, the United States moved to
dismiss the criminal charges against White without
prejudice. Judge Molloy, released White to his
family.
On July 22nd, 2016, another federal grand jury in
the District of Montana charged White with
aggravated sexual abuse of a child and attempted
sexual abusive contact with a child. On
September 28th, 2016, the Honorable Susan Watters,
United States District Judge in the District of
Montana, ordered White to be evaluated in order to
determine whether White was competent to stand
trial.

120a
On November 28th, 2016, the medical evaluator
concluded that White was not competent to stand
trial. On January 11th, 2017, Judge Watters
conducted a competency hearing and ordered that
White be evaluated and that attempts be made to
assist White in attaining competency. If competency
could not be restored, Judge Watters ordered the
facility’s director to file a certificate pursuant to 18
U.S.C. Section 4246(a) stating whether White is
presently suffering from a mental disease or defect,
as a result of which his release would create a
substantial risk of bodily injury to another person or
serious damage to the property of another.
On July 26th, 2017, the BOP evaluators opined
that White did not meet criteria for civil commitment
under 18 U.S.C. Section 4246; however, during 2017,
BOP evaluators also evaluated White under 18
U.S.C. Section 4248 and prepared a report dated
August 18th, 2017.
On August 30, 2017, pursuant to 18 U.S.C.
Section 4248, the United States filed in this court a
certificate of sexually dangerous person concerning
White. In its certification, the United States cited
conduct underlying the current pending offenses in
the District of Montana to allege that White
previously engaged or attempted to engage in
sexually violent conduct or child molestation. The
United States also cited evidence that between 2007
through 2014 he engaged in several acts of abusive
sexual contact, sexual assault, child molestation
against several minors under the age of 12 years.
The certification identified no convictions for
sexually violent conduct or child molestation or

121a
attempted sexually violent contact or attempted child
molestation.
After the certification of August 30th, 2017, there is
— doctors examined and evaluated White. These
evaluations noted White’s intellectual disability.
They’re in the record. See report of Fabian M. Saleh,
Docket Entry 11-1; report of Joseph J. Plaud, Ph.D.,
docket entry 12; Report of Amy Phenix, Docket
Entry 21-1; report of Luis Rosell, Docket Entry 25.
Two evaluators questioned White’s ability to
understand and meaningfully participate in the
proceeding under 18 U.S.C. Section 4248. See report
of Dr. Rosell at Docket Entry 25, page 11. Doctor —
excuse me — see report of Dr. Plaud, Docket Entry 12
at page 16.
On November 28th, 2017, White filed a motion to
appoint a Guardian Ad Litem. In support, White
argued that his mental condition rendered him
incompetent to assist counsel in the matter.
On December 1st, 2017, Judge Watters conducted a
hearing in the District of Montana, Judge Watters
found that White is not suffering from mental
disease or defect such that his release would create a
substantial risk of bodily injury to another person or
serious damage to the property of another and
declined to commit White under 18 U.S.C.
Section 4246. On that same date, Judge Watters
granted the government’s motion to dismiss the
criminal charges in the District of Montana against
White without prejudice.
On December 20th, 2017, White filed a motion to
dismiss the certificate against him or, in the

122a
alternative, to hold a competency hearing. The
government opposed the motion.
In April 2018, the government, again, evaluated
White pursuant to 18 U.S.C. Section 4246. See
Docket Entry 51.
On April 30th, 2018, Dr. Evan DuBois concluded
that White did not meet criteria for commitment
under 18 U.S.C. Section 4246. See Docket Entry 51
at page 13 and at page 14.
On May 14th, 2018, United States Magistrate
Judge Gates granted White’s motion for a Guardian
Ad Litem, and recommended denying his motion to
dismiss or in the alternative for a competence
hearing. Thereafter, Raymond Tarlton was appointed
as a Guardian Ad Litem.
On September 11th, 2018, this Court entered an
order declining to adopt the M and R of United
States Magistrate Judge Gates. See Docket Entry 95.
In that order the Court granted White’s motion for
a competency hearing and scheduled the hearing for
November 29th, 2018. The Court also ordered an
examination of White under 18 U.S.C. Section
4247(b) in order to determine whether White is
presently suffering from a mental disease or defect
rendering him mentally incompetent to the extent
that he is unable to understand the nature and
consequences of the proceeding under 18 U.S.C.
Section 4248 against him or to assist properly in his
defense.

123a
The Court ordered that the report be served on
counsel for White, counsel for the United States, and
White’s Guardian Ad Litem, Mr. Tarlton.
In this Court’s Order of September 11th, 2018 the
Court explained the textual rationale for this Court’s
authority to order such an examination and report,
to hold such a competency hearing, and to provide
relief if the Court found White to not be competent.
See Docket Entry 95 at pages 7 and 8.
The government moved for reconsideration, White
responded in opposition and the government replied.
See Docket Entries 98, 100, and 101.
On November 26th, 2018, the Court entered the
detailed 20-page Order denying the government’s
motion for reconsideration. See Docket Entry 103.
The Court explained the textual rationale within
18 U.S.C. Sections 4247 and 4248, for concluding
that this Court could receive a report concerning
White’s competency, could hold a competency
hearing concerning White, and could provide relief to
White if the Court found White not to be competent.
See Docket Entry 103, at pages 2 through 11.
The Court also explained that if the Adam Walsh
Act did not permit the - excuse me - if the Adam
Walsh Act did permit the trial and commitment of an
incompetent person who contests all three elements
under the Adam Walsh Act, and such a proceeding
would not comport with procedural due process as
applied to that person. See Docket Entry 103, at
pages 10 through 20.

124a
On November 29th, 2018, the Court held a
competency hearing. The Court heard the testimony
of Dr. Hans Stelmach. Dr. Stelmach’s CV is at
Docket Entry 104. He is a board-certified
psychiatrist and an expert witness in forensic
psychiatry. The Court also received his initial report
concerning White’s competence to be deposed. See
Docket Entry 89. And Dr. Stelmach’s supplemental
report concerning White’s competence to proceed in
this Section 4248 proceeding. See Docket Entry 110.
The Court also received the report of Dr. Justin
Rigsbee of the Bureau of Prisons concerning White’s
competence to proceed in this Section 4248
proceeding. See Docket Entry 102.
The court also received the testimony of Guardian
Ad Litem Raymond Tarlton.
The Court credits the testimony and supplemental
report of Dr. Stelmach, as described in detail at
Docket Entry 110. Dr. Stelmach opined that Mr.
White is a 31-year-old Native American man with
fetal alcohol syndrome and a major intellectual
disability.
Dr. Stelmach interviewed White on August 10th,
2018 and October 1st, 2018. Dr. Stelmach attempted
to explain the limits of confidentiality pertaining to
the evaluation with White, specifically, that
information from the assessment would be relayed to
his attorney and summarized in a written report.
The report could then be shared with the
Department of Justice and the Judge. The Doctor
might be asked to testify on the contents of his
findings and implications. The Doctor informed

125a
White that he did not have to answer any questions
if he was unwilling or unable to do so. White was not
able to verbalize a simple understanding as to the
nature, purpose, and limits of confidentiality
pertaining to the assessment.
However, he agreed to proceed with the interview.
Although White, according to Dr. Stelmach,
appeared to put forth effort, he was considered an
unreliable historian based on his significant
intellectual disability. White stated to Dr. Stelmach
that he was at Butner for a four-month period to
restore competency to go to court.
Dr. Stelmach opined that White was unable to
retain the concepts that they were discussing and
instead regurgitated past information about a fourmonth study that was not accurate. Mr. Stelmach
recounted in his report materials that were available
for review and that he did review in preparation for
his opinion. This information is recounted at Docket
Entry 110, pages 2 and 3. Part of what he had with
respect to his supplemental report was the forensic
evaluation of Dr. Rigsbee, dated October 22nd, 2018.
Dr. Stelmach’s report recounts the background,
history, and psychological development of White.
White was born in Crow Agency, Montana. His
mother was a teenager when she became pregnant
with him. White was born prematurely and
diagnosed with fetal alcohol syndrome due to
intrauterine alcohol exposure. White subsequently
had both physical and intellectual development
delays.

126a
Peggy White and Gary Big Hair adopted White
when he was five days old, due to his biological
mother’s inability to care for him due to alcohol and
drug abuse. At age one, White had surgical
intervention for either renal or liver dysfunction due
to fetal alcohol syndrome. White was enrolled in
special education classes and received a certificate of
attendance after completing the 12th grade. White
has been on disability, receiving supplementary
social security income since he was a child and has
never been gainfully employed. White has never been
convicted of a crime.
White has been repeatedly evaluated as Dr.
Stelmach recounts in his report and has been found
to be intellectually disabled. Dr. Stelmach’s report
recounts that in 2012, White underwent a
psychological evaluation, including an assessment
under the Wechsler Adult Intelligence Scale, Fourth
Edition. White scored in the first percentile on
intelligence, meaning that 99 percent of the
population would score higher than White with his
full scale intelligence quotient of 56.
He also completed a Wide Range Achievement Test,
Fourth Edition, and was determined to have first
grade math level, a second grade spelling and
sentence comprehension level, and a third grade
reading level.
In 2016, White underwent intelligence testing by
Dr. Pinuto (ph), on the WAIS 4, White obtained a full
scale intelligence quotient of 55. White has had no
incident reports at FMC Butner and is housed in an
open mental health unit.

127a
White told Dr. Stelmach that he was being held at
FMC Butner for study for four months, there’s a
group, a four-month group. White was alert and
oriented to person, place, year, and month and date,
he knew his birthday but he could not tell Dr.
Stelmach how old he was. He was unable to perform
simple money calculations, for example, he could not
subtract $5 minus $1, he did not know that there
were four quarters in a dollar, but he did know the
number of — and he did not know the number of
dimes or nickels in a dollar. He had limits on his
attention, concentration, and memory. He could not
answer most questions. He stated to the Doctor that
he could not write or read. He often simply said,
quote, hard for me to explain, can’t think that well,
hard to understand, I don’t know what to do, end
quote.
According to Dr. Stelmach, his thought process was
clearly impoverished, his mood was confused, his
affect was shallow, he denied having auditory or
visual hallucinations.
White was administered questions from the
competence assessment for standing trial for
defendants with mental retardation, the so-called
CAST-MR. The CAST MR was designed specifically
to test the competency of individuals already
diagnosed as mentally retarded to assist in their
legal defense. The CAST-MR consists of three
sections that evaluate the individual’s understanding
of basic legal terms, the respondent’s ability to assist
in their own defense, and open-ended questions
regarding the respondent’s specific case asked orally
by the examiner.

128a
The test questions have a high validity score and
because the test is specifically designed for those who
have already been diagnosed as mentally retarded,
the test can provide an analysis into the minds of
intellectually disabled persons that most other tests
are not designed to reach since most other
psychological tests and interviews are designed for
individuals with normal intellectual functioning.
For portions of the assessment White was given
two answers to each question and struggled to pick
either answer. He was asked whether a witness is
someone who sits on the jury or instead is someone
who saw a crime. White was unable to choose
between these two answers. He could not answer
what happens when he goes to court. White could not
■ define the role of the Judge. He could not decide if
the Judge is a person who defends you or the person
that decides the case. White could not determine the
role of a jury, he could not decide if the jury was a
group of people who decide on the facts of the case or
if the jury were individuals that give answers for the
other side.
Although White knew that his lawyer was a person
named Jackie, he did not know any of his attorneys’
last names. He could not tell if his lawyers were
there to solve a crime or to take his side. White did
not know the role of a prosecutor. He could not
differentiate between whether the prosecutor is
someone who attempts to defend him in court or
tried to prove him guilty.
White could not tell the difference between a
medical term or a legal process. When asked which of
these more closely define the legal term for, quote,

129a
hearing, end quote. White could not define a criminal
sentence. He could not distinguish between whether
the definition was the amount of money one would
pay an attorney or the amount of time that he would
spend in jail. White did not know whether a crime
was when one goes to jail or when one breaks the
law. White did not know what it means to be guilty.
White could not tell the difference between whether
guilty meant that the prosecutor proved that
someone was guilty or that someone got arrested for
something.
White did not know the meaning of innocent. He
could not tell the difference between whether this
meant that the prosecutors could not prove guilt or
that someone who perpetrated a crime was sorry
that it happened. White could not tell what
penitentiary meant, that when one was found guilty,
the Judge would order a sentence for that individual
to serve or if people did not like that individual and
they wanted to get rid of that individual and that
they would send that individual away. He did not
know if a penitentiary meant that he was in school or
in prison.
White could not tell if a felony meant that a very
serious crime had been committed or if a felony was
a person who talks in court. White could not define a
misdemeanor and he could not tell the difference if
this meant that the crime committed was minor or a
training program. He did not know the meaning of
pleading guilty. He could not decide if guilt meant
that someone said that they committed a crime or
someone was acquitted of a crime. White did not
know the definition of time served. White had
difficulty choosing between whether or not this

130a
meant how fast he was going or, instead, how long he
had been in jail.
White did not know the definition of probation and
could not distinguish between whether or not this
meant that one reports to an officer instead of going
to jail or rather one has to stay in jail for a very long
time. White did not know the definition of a plea
bargain and could not tell the difference between
whether or not this meant to make a deal for a lesser
sentence or instead to have a jury trial. White did
not know the definition of acquitted and could not
decide if this meant that one would be sent to jail or
instead that one was found not guilty.
White did not know the definition of maximum
sentence and could not choose between whether or
not this meant the most time one can serve or rather
the least time one can serve. White did not know the
definition of a fine. White could not choose between
whether or not this meant this was time served in
jail or money paid to a court. White could not define
a minimum sentence, White could not choose
between if this meant the least time one would serve
or the most time that one would serve.
White was unaware that he had a Guardian Ad
Litem appointed despite being explained the role of a
Guardian Ad Litem, he was unable to repeat or
retain the definition or concept.
Mr. Tarlton credibly testified as an aside that he
had met for approximately two hours or two
occasions, one hour each time, with Mr. White. Mr.
White, obviously, did not recall that.

131a
Dr. Stelmach’s report at Docket Entry 110, also
discussed at length assessments under Adaptive
Functioning Assessment. He administered the
Vineland Adaptive Behavior Scale, Second Edition.
This scale measures the personal and social skills of
individuals from birth into adulthood because
adaptive behavior refers to an individual’s typical
performance of the day-to-day activities required for
personal and social sufficiency. These scales assess
what a person actually does rather than what he or
she is able to do.
A Vineland 2 assesses adaptive behavior in four
domains: Communication, daily living skills,
socialization, and motor skills. It also provides a
composite score that summarizes the individual’s
performance across all four domains. Dr. Stelmach’s
report contains the results for White at pages 8 and
9.
The Vineland 2 indicated that White’s adaptive
behavior composite standard score of 22 summarizes
his overall level of adaptive functioning. His level of
adaptive functioning within the communication
domain is low for his age group. He had an adaptive
level of low for all three subdomains, receptive,
expressive, and written. His expressive skills
represent a strength, his receptive skills represent a
weakness compared to his other communication
skills. The report then goes on to provide further
detail associated with this.
Dr. Stelmach also considered the report of Dr.
Rigsbee, an evaluator at FMC Butner, Dr. Rigsbee’s
report is in the record, it’s dated October 22nd, 2018.
Dr. Rigsbee concluded that White is currently

132a
suffering from a mental disease or defect which
renders him unable to understand the nature and
consequences of the proceedings against him or to
assist properly in his defense. As for White’s
prognosis, Dr. Rigsbee opined that White’s prognosis
with regard to restorability to competency is poor. As
Dr. Rigsbee stated, an intellectual disability is a
condition that is unamenable to change. While White
has demonstrated cooperation with directions when
given, he will continue to need assistance from others
in order to manage his activities of daily living.
Dr. Stelmach’s report contains two diagnoses. The
first diagnosis is fetal alcohol spectrum disorder. As
Dr. Stelmach explains, these disorders are a group of
conditions that occur in a person whose mother
drank alcohol during pregnancy. Problems may
include an abnormal appearance, short height, low
body weight, small head size and features, poor
coordination, low intelligence, behavior problems,
and problems with hearing or seeing.
Those affected are more likely to have trouble in
school, legal problems, participate in high risk
behaviors, and have trouble with alcohol or other
drugs. The most severe form of the condition is
known as fetal alcohol syndrome. Dr. Stelmach gives
greater detail associated with this at page 10 of his
report.
According to Dr. Stelmach’s opinion in his report,
at Docket Entry 110, page 11, White’s primary
psychiatric diagnosis is most likely a direct result of
fetal alcohol syndrome, which reasonable medical
certainty, Dr. Stelmach persuasively opined that
White’s primary psychiatric diagnosis as defined by

133a
the Diagnostic and Statistical Manual of Mental
Disorder, Fifth Edition, is intellectual disability,
moderate to severe.
Intellectual disability, as Dr. Stelmach explained,
is a disorder with onset during the developmental
period that includes both intellectual and adaptive
functioning deficits and conceptual social and
practical domains. The following three criteria must
be met: First, deficits in intellectual function, such as
reasoning, problem solving, planning, abstract
thinking, judgment, academic learning, and learning
from experience. Confirmed by both clinical
assessment
and
individualized
standardized
intelligence testing.
Two, deficits in adaptive functioning that result in
failure to meet developmental and sociocultural
standards for personal independence and social
responsibility, without ongoing support, the adaptive
deficit limit functioning in one or more activities of
daily life, such as communication, social
participation, and independent living across multiple
environments, such as home, school, work, and
community.
Three, onset of intellectual and adaptive deficits
during the developmental period.
White has a full scale IQ of 55 or 56 and has
struggled in school and in sustaining employment.
Dr. Stelmach’s report provides a detail associated
with all of these issues concerning this diagnosis and
the Court credits the diagnosis of Dr. Stelmach that
White has intellectual disability, moderate to severe,

134a
as recounted at pages 12 and 13 of his report at
Docket Entry 110.
In his final opinion and recommendations, Dr.
Stelmach opines that White has major deficits in
decision-making,
impairs
that
cognition
comprehension, and recall, all of which impact his
decision capacity to manage affairs of person and
property, impairs ability to give testimony, impairs
ability to stand trial and assist in his own defense.
Dr. Stelmach persuasively opines that White does
not understand the nature of the proceedings against
him under Section 4248.
White has poor recollection of chronological events,
he has very poor recall overall and is easily confused.
He repeats statements that were told to him in the
past which are no longer factual, for example, his
belief that he is presently at FMC Butner for four
months of competency restoration. White’s ability to
differentiate between factual recall and statements
that he has heard in a competency restoration class
or when receiving discovery, for example, is
impaired.
White lacks the ability to recall personal knowledge
of events that he would need to convey to a Guardian
Ad Litem for that Guardian Ad Litem to assist him
in any way, particularly in defending against the
first element in an Adam Walsh Act case under 18
U.S.C. Section 4248. White does not understand and
lacks the ability to properly communicate historical
facts accurately. He does not understand the role of a
Guardian Ad Litem. White lacks the capacity to
testify as a witness in a 4248 proceeding. The
truthfulness of his testimony would be unreliable.

135a
This impairment is not volitional, it is due to White’s
intellectual disability.
Dr. Stelmach persuasively opined that in his
professional opinion, White is not able to understand
the nature of the Section 4248 civil commitment
proceedings against him, and is not able to assist
counsel in defending these proceedings.
Dr. Stelmach also opines that in light of White’s
severe intellectual and adaptive functioning deficits,
it is Dr. Stelmach’s opinion that White is not
competent to be a party to any litigation under any
standard, civil or criminal.
As for Dr. Rigsbee’s report, that too is in the record,
at Docket Entry 102, as is Dr. Stelmach’s initial
report at Docket Entry 89. Dr. Stelmach’s report at
Docket Entry 89 also persuasively explained why
White was not competent to give a deposition. He
then, obviously, expounded that on his report at
Docket Entry 110.
Dr. Stelmach also persuasively testified during the
competency hearing why White could not be restored
to competence through medication.
As for Dr. Rigsbee’s report, the report is at Docket
Entry 102, was filed with the Court on November 7,
2018, it’s dated October 22nd, 2018. Dr. Rigsbee did
not interview White as part of his evaluation but the
lack of an interview is not material to his findings.
Dr. Rigsbee’s report records the material that he
reviewed at pages 2 and 3, including the forensic
evaluation authored by Dr. Stelmach, dated August
22nd, 2018, is in the record at Docket Entry 89.

136a
Dr. Rigsbee’s report recounts the mental status
evaluation associated with Mr. White and also does a
medical psychiatric review at pages 3 and 4. Dr.
Rigsbee also recounts the variety of psychological
testing that has been conducted on White over the
course of a number of years.
For example, Dr. Rigsbee’s report recounts that
while White was at the FDC CTAC in Washington
during 2012, he was administered the Wechsler
Adult Intelligence Scale, Fourth Edition, an objective
measure of intellectual functioning. The result of the
WAIS 4 reflected that White was in the extremely
low range of intellectual functioning, attaining an
estimated full scale intelligence quotient and general
ability index score of 61. These scores placed him in
the first percentile indicating that 99 percent of the
individuals his own age would score better than
White. His score in the four indices were verbal
comprehension, 63; perceptual reasoning, 67;
working memory, 55; and processing speed, 62. Each
of these index scores fell into the extremely low
range of intellectual functioning and there was no
significant difference between these index scores.
The results of the WAIS 4 were noted to be
inaccurate as to White’s true intellectual functioning
according to Dr. Rigsbee. Dr. Rigsbee also recounted
various other tests conducted on White over the
course of a number of years, including a test by Dr.
Weaver, O’Connor, Pinuto, and Ms. Corr (ph), where
White was administered the WAIS 4 and the word
reading subtest. On that WAIS 4 he obtained an FS
IQ of 55, which fell into the impaired, extremely low
range. Dr. Rigsbee’s report then recounts the details

. 137a
associated
with
that
report
and
other
neuropsychological testing done on Mr. White.
The report also recounts various assessments of
individual adaptive functioning, and Dr. Rigsbee
opined at page 6 that White’s history, as reflected in
the records he had reviewed, appeared to establish
that White does have an intellectual disability.
White — excuse me — Dr. Rigsbee opined that the
intellectual disability was mild as between Dr.
Rigsbee and Dr. Stelmach’s. The report credits the
opinion of Dr. Stelmach and finds that the
intellectual disability of Mr. White is moderate to
severe.
Dr. Rigsbee’s report then ultimately answered the
question the Court had asked to be assessed and Dr.
Rigsbee opined as follows: That White’s history
reflects he has demonstrated only limited factual
knowledge of the roles of trial participants, he has
not demonstrated an understanding of the
circumstances surrounding prior or current
allegations, the adversarial nature of the proceedings
or the possibility of any penalties if he is convicted.
That’s according to Dr. Rigsbee.
The results of prior evaluations suggest White
would not demonstrate an understanding of the
consequences in the event he is civilly committed
under Section 4248. While he appears to have
demonstrated the ability to remember certain facts
surrounding legal proceedings, White has been
unable to formulate a complete understanding of
such facts, such as, what the members of a jury
actually assess or what would occur in the event of a
hung jury. Despite various attempts of providing

138a
White with education on the trial process within the
Bureau of Prisons, White continues to be unable to
apply factual information about the court to his own
legal situation. There does not appear to have been a
noted improvement in his functional ability since his
prior competency evaluations.
More recent forensic evaluations where he was
examined under Section 4248 describe him as a lowfunctioning individuals - a low-functioning
individual who had difficulties articulating basic
current information, such as the reason why he was
presently at FMC Butner.
Additionally, it was also conveyed he had poor
social skills and needed others to help him function
in an appropriately social manner. He requires the
assistance of his peers to help him write letters and
communicate with others, has problems with social
judgment, demonstrates impairment in managing
his finances, and has never lived independently.
According to Dr. Rigsbee, this evidence suggests
that the features of his intellectual disability have
not improved to the point where he would be able to
understand the nature and consequences of the civil
proceedings against him or properly assist in his
defense. According to Dr. Rigsbee, it is his opinion
that White is currently suffering from a mental
disease or defect which renders him unable to
understand the nature and consequences of the
proceedings against him or to assist properly in his
defense.
Dr. Rigsbee also opined that White’s prognosis with
regard to restorability to competency is poor, as Dr.

139a
Rigsbee opined, intellectual disability is a condition
that is unamenable to change. Although White has
demonstrated cooperation with directions when
given, he will continue to need assistance from others
in order to manage his activities of daily living.
In sum, White is currently suffering from a mental
disease or defect, that is, intellectual disability,
moderate to severe, which renders White unable to
understand the nature and consequences of the
Section 4248 proceeding against him and to assist
properly in his defense in the Section 4248
proceeding.
White also suffers from fetal alcohol syndrome.
Doctors cannot medicate White to attain competency
and multiple efforts to help White attain competency
through therapy have not worked due to White’s
intellectual disability.
The Court credits the testimony and reports of Dr.
Stelmach and finds that White is presently suffering
from mental disease or defect, that is, intellectual
disability, moderate to severe, rendering him
mentally incompetent to understand the nature and
consequences of the Section 4248 proceeding against
him and to assist properly in his defense in this
Section 4248 proceeding.
White also suffers from fetal alcohol syndrome. The
Court rejects the government’s argument that
competency is never relevant in a Section 4248
proceeding, as explained at length in this Court’s
Order of November 26th, 2018, at Docket Entry 103.
Competency is relevant in a Section 4248 proceeding

140a
where the respondent contests all three elements
under the Adam Walsh Act.
Furthermore, the Adam Walsh Act permits a Court
to dismiss a Section 4248 proceeding against an
incompetent person who contests all three elements.
See Docket Entry 103, at pages 2 through 11.
Alternatively, if the Adam Walsh Act does not
permit a Court to dismiss a Section 4248 proceeding
against an incompetent person who contests all three
elements under the Adam Walsh Act, then
permitting such a trial and ensuing commitment
would violate procedural due process as applied to
that person. See Docket Entry 103, at pages 10
through 20.
Given that White is incompetent and cannot attain
competency via medicine or therapy and that White
contests all three elements under the Adam Walsh
Act, the Court grants White’s motion to dismiss the
Section 4248 proceeding and dismisses without
prejudice this Section 4248 proceeding.
The government’s case against White under 18
U.S.C. Section 4246 remains pending before the
Honorable W. Earl Britt. See United States v. White,
5:18-hc-2295-BR, Eastern District of North Carolina.
I’ve signed an order incorporating by reference my
findings and conclusions.
I thank counsel for their work in connection with
the case.
Anything from the United States?

141a
MR. DODSON: No, Your Honor. But, just to be
clear, White is being remanded to custody pending
the 46 proceeding?
THE COURT: Correct. He is Judge Britt’s person
now. This case — he is not in my court under 4248 as
of right now.
MR. DODSON: Understood. We just - the
government just wanted to ensure that if — if such a
ruling were coming from the Court, which sounds
like it’s not, we just request a stay of that so we can
consider whether to appeal or consult the
Department of Justice to get such authorization.
THE COURT: You mean, if he were getting out?
MR. DODSON: Right. So, I mean, we just want to
make sure that any — any release would be stayed
pending —
THE COURT: Right. I didn’t order him to be
released. I said that he is now subject to the
proceeding under 4246, so I would expect y’all to get
on Judge Britt’s docket.
MR. DODSON: Thank you, Your Honor.
THE COURT: I do thank y’all for your work.
Anything else, Ms. DiLauro?
MS. LITTLE: Can we heard very briefly?
THE COURT: Okay.
MS. LITTLE: This is maybe hyper-technical, but
out of an abundance of caution, my understanding
was that the last ruling from the Court has been that
our motion to dismiss was dismissed without

142a
prejudice, in the Court’s Order at Docket Entry 95.
In light of this Court’s Order on competency, we
would just ask that that motion be renewed so that it
could be granted today.
THE COURT: Okay. It’s - it’s - well, I - even
though they removed the gavel, in my mind, it was
still pending, and so to the extent that the clerk’s
office’s removal of a gavel next to a motion means
that it’s not pending, I always considered it to be
pending. That’s why we were having this hearing.
MS. LITTLE: Thank you, Your Honor.
MS. MAHAN: Thank you, Your Honor.
MR. DODSON: Thank you, Your Honor.
(The foregoing proceedings concluded at 2:44 p.m.)

143a
APPENDIX K
[REDACTED]

144a
[REDACTED]

145a
[REDACTED]

146a
[REDACTED]

147a
[REDACTED]

148a
[REDACTED]

149a
[REDACTED]

150a
[REDACTED]

r

151a
[REDACTED]

152a
[REDACTED]

153a
[REDACTED]

154a
[REDACTED]

155a
[REDACTED]

156a
[REDACTED]

157a
[REDACTED]

158a
[REDACTED]

